PENSION BENEFIT GUARANTY CORPORATION




  SEMIANNUAL REPORT
   TO THE CONGRESS




  OFFICE OF INSPECTOR GENERAL


     APRIL 1, 2000 - SEPTEMBER 30, 2000
                                                                          Office of Inspector General

                                                                            October 31, 2000



The Honorable Alexis Herman
Chairman, PBGC Board of Directors

        It is my pleasure to submit this twenty-third semiannual report to the Congress.
This report summarizes the major activities and accomplishments of the Pension Benefit
Guaranty Corporation (PBGC) Office of Inspector General (OIG) for the six-month period
ending September 30, 2000. Our accomplishments were made possible by the dedicated
efforts of a committed and professional staff.

        Our work this reporting period has resulted in significant operational benefit to
PBGC. Our efforts were directed to increased economy, efficiency, and quality of PBGC's
operations and combating actual or potential occurrences of waste, fraud, and misuse of
Government funds. My office issued five (5) reports in the audit area, including the
management letter relating to the audit of PBGC’s financial statements for 1999 and 1998, a
report on sensitive payments made to PBGC senior level employees, and an evaluation of
PBGC’s security policies and procedures.

       In the investigative area, we opened ten (10) and closed twenty (20) investigations.
Of the investigations we closed this period, the most significant case found that a senior
level employee had misused his government credit card for improper cash advances and
personal items, and engaged in multiple abuses relating to government travel. In addition,
we closed five (5) cases involving pension fraud without obtaining prosecutions because the
cases were old when the agency referred them to the OIG.

       During this period, the Inspector General testified before the Senate Special
Committee on Aging and the Senate Small Business Committee. The Committees asked the
IG to address audit work we performed at their request concerning PBGC’s benefit
determination process and the timeliness of PBGC’s issuance of initial determination letters.
The testimony also discussed the results of a penetration study we performed of PBGC’s
computer systems and an audit of computer security policies and procedures.

        To accomplish our work, I seek to maintain productive professional working
relationships with PBGC’s Executive Director, managers, employees, and the Congress. I
look forward to continuing these relationships, as the OIG strives to maintain the highest
levels of integrity and quality in the Corporation's programs and operations, and help PBGC
meet its important challenges.


                                            Sincerely,



                                            Wayne Robert Poll
                                            Inspector General


Enclosure
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                  PENSION BENEFIT GUARANTY CORPORATION




EXECUTIVE SUMMARY
This is the twenty-third semiannual report to the Congress summarizing the activities and
accomplishments of the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector
General (OIG) for the period April 1, 2000 through September 30, 2000. Our efforts were
directed toward performing audits, inspections, and evaluations of the Corporation's programs
and operations, conducting several large and complex investigations, and providing technical
assistance and advice on Corporate programs.

In the audit area, we issued five (5) reports, including:

       •   management letter report citing control weaknesses found during the
           fiscal year 1998 Financial Statement audit (see page 2);
       •   audit of sensitive payments made to senior PBGC officials related to
           travel, honoraria, gifts, and executive pay (see page 2); and
       •   an evaluation of PBGC’s security policies and procedures (see page 3).


In the investigative area, we opened ten (10) new investigative cases during the reporting
period, and closed twenty (20) cases. The most significant case we closed this period involved
a senior level employee’s abuse of the government credit card and travel violations (see page 9).
In addition, we continue to vigorously pursue cases of pension fraud. During this period,
however, we closed without prosecution five (5) fraud cases because the frauds had occurred
many years before they were referred to us for investigation. The age of the referred matters
caused investigation problems as well as prosecution concerns because the statute of
limitations had expired, or was about to expire, on most of the fraud.

During this period, the Inspector General testified before the Senate Special Committee on Aging
and the Senate Small Business Committee. The Committees asked the IG to address audit work
we performed at their request concerning PBGC’s benefit determination process and the
timeliness of PBGC’s issuance of Initial Determination Letters (IDLs).        The testimony also
included discussion of a penetration study we performed of PBGC’s computer systems and an
audit of their computer security policies and procedures. (This audit work was reported in the
two previous Semiannual Reports to Congress, covering the periods April 1, 1999 through
September 30, 1999, and October 1, 1999 through March 31, 2000).

This report also contains our annual update of the OIG’s strategic planning for the coming
year.




                                                  i
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                     PENSION BENEFIT GUARANTY CORPORATION




TABLE OF CONTENTS
               LETTER TO THE CHAIRMAN

               EXECUTIVE SUMMARY ....................................................................                i

               TABLE OF CONTENTS.......................................................................              ii

               LIST OF TABLES ................................................................................       iii

               INTRODUCTION..................................................................................        1

                         The Pension Benefit Guaranty Corporation
                         The Office of Inspector General

               AUDIT ACTIVITIES ............................................................................         2

                         Overview
                         Audits and Evaluations
                         Audit Follow-up and Resolution
                         Access to Information
                         PBGC Management - Inspector General Disagreements

               INVESTIGATORY ACTIVITIES .........................................................                    8

                         Overview
                         Activity This Period
                         Significant Investigations

               OTHER OFFICE OF INSPECTOR GENERAL ACTIVITIES .............                                            11

                         Review of Proposed Statutory and Regulatory Changes
                         Consultation With Agency
                         Consultation With Congress
                         Liaison With the United States General Accounting Office

               STRATEGIC PLANNING ....................................................................               13

                           Risk Areas and OIG Activities

               GLOSSARY...........................................................................................   20




                                                              ii
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                      PENSION BENEFIT GUARANTY CORPORATION




LIST OF TABLES
       TABLE 1 - INSPECTOR GENERAL ISSUED REPORTS .........................................      5

       TABLE 2 - REPORTS ISSUED WITH QUESTIONED COSTS ...............................            6

       TABLE 3 - REPORTS ISSUED WITH RECOMMENDATIONS
                   THAT FUNDS BE PUT TO BETTER USE .........................................     7

       TABLE 4 - STATISTICAL TABLES OF INVESTIGATIONS ...................................        10

       TABLE 5 - CROSS-REFERENCE TO REPORTING REQUIREMENTS
                   OF THE INSPECTOR GENERAL ACT...............................................   19




                                                   iii
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




INTRODUCTION
THE PENSION BENEFIT GUARANTY CORPORATION

       The Pension Benefit Guaranty Corporation (PBGC) was established under Title
       IV of the Employee Retirement Income Security Act of 1974 (ERISA), as amended,
       5 U.S.C. §§ 1301-1461, as a self-financing, wholly-owned federal government
       corporation to administer the pension insurance program. ERISA requires that
       PBGC (1) encourage the continuation and maintenance of voluntary private
       pension plans; (2) provide for the timely and uninterrupted payment of pension
       benefits to participants and beneficiaries; and (3) maintain premiums at the
       lowest level consistent with carrying out PBGC's obligations.

       For about 43 million Americans, the PBGC provides assurance that their
       retirement benefits are safe now and for the future. The PBGC protects the
       pensions of participants in certain defined benefit pension plans, i.e., plans that
       promise to pay definitely determinable retirement benefits. Such defined benefit
       pension plans may be sponsored individually or jointly by employers and by
       unions. Currently, there are approximately 215,000 participants receiving
       benefit payments from PBGC. Additionally, in its fiscal year 1999 financial
       statement, the PBGC reported that it has assets of about $19.1 billion and
       liabilities of $11.9 billion.


THE OFFICE OF INSPECTOR GENERAL
       One of the strategic goals of the OIG is to assist the PBGC in operating more
       efficiently and effectively by identifying ways to improve PBGC's programs. T o
       accomplish this goal, the OIG conducts agency audits, inspections, and
       investigations, and makes recommendations to PBGC management. In addition,
       the OIG is required statutorily to inform the agency head of fraud and other
       serious problems, abuses, and deficiencies relating to the programs and
       operations administered or financed by the PBGC, recommend corrective action
       concerning such problems, and report on the progress made in implementing
       corrective actions.

       The OIG staff consists of twelve (12) employees, of which two are investigators.
       In addition, we are in the process of hiring an information technology auditor.

       The Chief Financial Officers Act (CFO Act) requires that a government
       corporation's financial statements be audited by the Inspector General, unless
       preempted by the General Accounting Office (GAO). The OIG contracted with an
       Independent Public Accountant (IPA) to perform the audit of the Corporation’s
       FY 1999 financial statements.




SEPTEMBER 2000                                                               PAGE 1
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




AUDIT ACTIVITIES
OVERVIEW

       The OIG provides independent analyses to management on a full range of
       PBGC's operations including programs, activities, functions, and funds. The
       OIG has full discretion in establishing audit objectives, plans, and priorities.
       During this reporting period, the OIG issued five (5) reports (see TABLE 1) to help
       PBGC reduce costs and strengthen management controls. Below is a summary
       of those reports. Our audits comply with the United States General Accounting
       Office’s Government Auditing Standards, while the inspections comply with
       quality standards for inspections published by the President's Council on
       Integrity and Efficiency.


AUDITS AND EVALUATIONS

       FISCAL YEAR 1999 FINANCIAL STATEMENT AUDIT –
       MANAGEMENT LETTER (2000-8/23138-3)

       The OIG engaged PricewaterhouseCoopers, LLP (PwC) to audit PBGC’s financial
       statements of the Single-Employer and Multiemployer Funds for the fiscal years
       (FY) ended September 30, 1999 and 1998. In the prior period, the OIG issued
       opinions on the financial statements and management’s assertion concerning
       the system of internal control, and a report on compliance with laws and
       regulations (see OIG Report 2000-7/23138-2).

       During this period, we issued a follow-on management letter report with findings
       concerning several control conditions, including the need to:

       •   Strengthen compliance with PBGC’s policies and procedures related to
           reconciliations, and retention of adequate source documentation.

       •   Develop formal policies and procedures related to the Multiemployer Working
           Group’s methodology for selecting multiemployer plans to review and its
           screening ratio process.

       REVIEW OF SENSITIVE PAYMENTS
       FISCAL YEAR 1999 (2000-14/23143)

       The OIG performed a review of sensitive payments made to senior level officials
       in FY 1999. Sensitive payments encompass a wide range of executive functions
       including compensation, travel, official entertainment funds, unvouchered
       expenditures, consulting services, speaking honoraria, gifts, and executive
       perquisites.   Sensitive payments issues are addressed in various laws,
       regulations, policies and procedures, and codes of ethics and conduct for
       government employees.




SEPTEMBER 2000                                                               PAGE 2
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION




       We found that PBGC’s directives did not comply with current Federal Travel
       Regulations. As a result, the Corporation was inconsistent in its reimbursement
       of travel expenses when actual subsistence expense was required.

       EVALUATION OF PBGC'S SECURITY POLICIES,
       PROCEDURES, AND STANDARDS
       (2000-9/23137-4)

       The OIG, assisted by PricewaterhouseCoopers LLP, performed an evaluation of
       the security policies, procedures, and standards documented in PBGC's
       Automated Information Systems Security Plan. The objective of our work was to
       identify possible security gaps at the policy level by evaluating the adequacy of
       PBGC's security policies and practices and comparing them against Federal
       Government and private sector security standards and practices.

       We found several security issues and suggested improvements, including to:

       •   Establish uniform entity-wide security policies, procedures, and standards;
       •   Incorporate security standards over new systems development;
       •   Revise the AISSP to include risks and controls over technology infrastructure
           at PBGC and compliance with NIST and OMB guidance;
       •   Develop an internet/intranet security policy; and
       •   Develop entity-wide security plans for Windows NT, UNIX, and Oracle.


AUDIT FOLLOW-UP AND RESOLUTION

       The audit follow-up system at PBGC is integral to effective management and is a
       shared responsibility of PBGC management and the OIG.            The OIG has
       established an audit follow-up system to document management's actions and
       assure prompt resolution of audit recommendations. Moreover, this OIG system
       provides for a record of actions taken by PBGC management on OIG and GAO
       recommendations.

       The Office of Management and Budget (OMB) Circular A-50 requires that audit
       recommendations be resolved within six (6) months of issuance. The OMB
       guidance provides that audit recommendations are resolved when Agency
       management and the OIG reach agreement on firm plans of action to correct
       reported weaknesses.      Resolution, however, does not mean an audit
       recommendation is closed. The OIG closes audit recommendations only when
       corrective actions have been completed by the agency.

       The OIG issued the Semiannual Listing of Audit Recommendations (OIG Report
       2000-15/32097) which contained eighty-two (82) audit recommendations of
       which sixty-eight (68) were outstanding audit recommendations from the prior
       reporting period. Of these open audit recommendations, the OIG’s Semiannual
       Report on Follow-up of Audit Recommendations (OIG Report 2000-16/32098)
       reported four (4) audit recommendations that agency management represented
       as closed and in which the OIG concurred.          Seventy-eight (78) audit
       recommendations remained open on September 30, 2000.




SEPTEMBER 2000                                                              PAGE 3
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



ACCESS TO INFORMATION

       Under the IG Act, the Inspector General is to have unfettered access to all agency
       records, information, or assistance when engaged in an investigation or audit.
       Whenever access to requested records, information or assistance is
       unreasonably refused or not provided, the Inspector General must promptly
       report the denial to the agency head. During this six-month reporting period,
       the Inspector General’s access to information was not restricted.


PBGC MANAGEMENT - INSPECTOR GENERAL
DISAGREEMENTS
       Semiannually, the OIG must report the status of all unresolved audit reports
       that are more than six months old to the Agency Head. These reports include:
       (1) reason(s) for unresolved reports and a timetable for their resolution; (2)
       actions taken or proposed on all unresolved reports or recommendations; and (3)
       age of unresolved recommendations. For this reporting period, there were no
       unresolved audit reports in which PBGC management decisions are pending.
       However, PBGC disagreed with a recommendation contained in the Fiscal Year
       1998 Financial Statement – Management Letter (99-8/23132-3). PBGC
       management commented on the Report and concurred “with its
       recommendations except for one item.” PBGC disagreed with a recommendation
       which states that PBGC should “modify existing Insurance Operations
       Department (IOD) procedures to require retention of source documentation
       generated as a result of the participant data audits and used to calculate benefit
       payments and value the PVFB [Present Value of Future Benefits] liability.”

       The OIG feels strongly that in order for PBGC to adequately manage its program
       and to ensure the proper calculation of each participant’s guaranteed benefit, it
       is imperative that supporting documentation for all critical data elements be
       collected and retained. During this reporting period, the OIG conducted an
       analysis of the data elements necessary to calculate guaranteed benefits and,
       thus, require supporting documentation. We will provide PBGC management
       with our analysis when it is complete. We will continue to work with PBGC
       management to resolve our disagreement.




SEPTEMBER 2000                                                               PAGE 4
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                 PENSION BENEFIT GUARANTY CORPORATION




                                             TABLE 1

                       INSPECTOR GENERAL ISSUED REPORTS
                          For The Six-month Period Ending
                               SEPTEMBER 30, 2000

                                                         DOLLAR       DOLLAR         DOLLAR
                                                        VALUE OF     VALUE OF       VALUE OF
 REPORT                                   DATE         QUESTIONED     BETTER      UNSUPPORTED
 NUMBER           REPORT TITLE           ISSUED          C OSTS     USED FUNDS       C OSTS

Audits

2000-8/    Fiscal Year 1999 Financial    8/21/00           -0-          -0-           -0-
23138-3    Statement Audit-
           Management Letter
2000-14/   Review of Sensitive           8/21/00           -0-          -0-           -0-
23143      Payments Fiscal Year
           1999

Evaluations

2000-9/    Evaluation of PBGC's              5/4/00         -0-          -0-           -0-
23137-4    Security Policies,
           Procedures, and Standards
2000-15/   Semiannual Listing of Audit    7/31/00           -0-          -0-           -0-
32097      Recommendations
2000-16/   Semiannual Report on           9/30/00           -0-          -0-           -0-
32098      Follow-up on Audit
           Recommendations




SEPTEMBER 2000                                                                    PAGE 5
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                              PENSION BENEFIT GUARANTY CORPORATION




                                                  TABLE 2      *


                        REPORTS ISSUED WITH QUESTIONED COSTS
                            For The Six-month Period Ending
                                 SEPTEMBER 30, 2000


                                                              NUMBER
                                                                   OF          QUESTIONED      UNSUPPORTED
                                                             REPORTS             C OSTS           C OSTS

 A.   For which no management decision has
      been made by the commencement of the
      reporting period                                             0                -0-            -0-

 B.   Which were issued during the reporting
      period                                                       0                -0-            -0-

      Subtotal ( Add A & B)                                        0                -0-            -0-

 C.   For which a management decision was
      made during the reporting period                             0                -0-            -0-

      (i)       dollar value of disallowed costs                   0                -0-            -0-

      (ii)      dollar value of costs not
                disallowed                                         0                -0-           - 0-

 D.   For which no management decision has
      been made by the end of the reporting
      period                                                       0                -0-            -0-

 E.   Reports for which no management
      decision was made within six months of
      issuance                                                     0                -0-            -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




SEPTEMBER 2000                                                                                  PAGE 6
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                            PENSION BENEFIT GUARANTY CORPORATION




                                                  TABLE 3      *


                        REPORTS ISSUED WITH RECOMMENDATIONS
                           THAT FUNDS BE PUT TO BETTER USE
                             For The Six-month Period Ending
                                  SEPTEMBER 30, 2000


                                                                                 NUMBER
                                                                                    OF          DOLLAR
                                                                                 REPORTS        VALUE

 A.   For which no management decision has been made by
      the commencement of the reporting period                                       0           -0-

 B.   Which were issued during the reporting period                                  0           -0-

      Subtotal ( Add A & B)                                                          0           -0-

 C.   For which a management decision was made during the
      reporting period                                                               0           -0-

      (i)         dollar value of recommendations that were
                  agreed to by management                                            0           -0-

             --   based on proposed management action                                0           -0-

             --   based on proposed legislative action                               0           -0-

      (ii)        dollar value of recommendations that were not
                  agreed to by management                                            0           -0-

 D.   For which no management decision has been made by
      the end of the reporting period                                                0           -0-

      Reports for which no management decision was made
      within six months of issuance                                                  0           -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




SEPTEMBER 2000                                                                                 PAGE 7
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




INVESTIGATORY ACTIVITIES
OVERVIEW
       The Inspector General is authorized to receive and investigate complaints from
       PBGC employees, the public, and other sources concerning violations of law,
       rule, or regulation; mismanagement; gross waste of funds; abuse of authority; or
       a substantial and specific danger to the public health and safety. Individuals
       may disclose information or make complaints to the Inspector General through
       the OIG "Hotline." (See announcement on back cover page.) The Inspector
       General has a policy to protect the legal rights of whistleblowers and
       complainants. At all times, the Inspector General takes reasonable precautions
       not to disclose the identity of the complainant without that person's consent.

       When we receive an allegation, we review it to determine its sensitivity and need
       for immediate OIG investigation, whether it has a lower priority, or whether it
       can be referred to the agency for review and corrective action. Allegations
       designated as priority receive immediate attention.              Generally, these
       investigations use more time and resources, often requiring a team approach. T o
       meet these challenges, the OIG has undertaken many strategies to responsibly
       investigate allegations that are brought to us, including hiring former federal
       investigators as contractors. Even with these additional contract resources, we
       have had to cease investigation activities and close some cases administratively.
       Though we have systematically reduced our investigative caseload, our limited
       investigative staff causes an inability to investigate allegations timely, which is
       unacceptable to us.

ACTIVITY THIS PERIOD
       The OIG received ten (10) complaints or allegations, and closed twenty (20)
       investigative cases during the reporting period. As of September 30, 2000, forty-
       three (43) cases remain open (see Table 4 for investigative program statistics).

       OIG HOTLINE
       The OIG operates a separate "1-800" hotline telephone number and a post office
       box. The Hotline telephone is answered by an investigative staff assistant for a
       two-hour period, Monday through Friday; at all other times there is a message
       that provides information about the Hotline service.

       For the period April 1, 2000 through September 30, 2000, we received a total of
       five (5) Hotline inquiries. Four of the five contacts were first-time inquiries
       relating to pension benefit questions, which were referred to the agency for
       action. For the fifth contact, the OIG provided customer assistance. We did not
       open any cases from our Hotline contacts this period.




SEPTEMBER 2000                                                               PAGE 8
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION



       SIGNIFICANT INVESTIGATIONS

       GOVERNMENT CREDIT CARD AND TRAVEL ABUSE

       Upon investigation, we found that a senior level employee had misused the
       government credit card for improper cash advances, and for personal items
       purchased locally and while on travel. We also discovered that the employee
       engaged in multiple abuses relating to government travel, including conducting
       personal travel under the guise of official government travel, abuse of travel
       bonus programs, and solicitation of loans from a subordinate employee.
       Because the offenses involved violations of criminal statutes, this matter was
       referred to the District of Columbia Office of the United States Attorney for
       possible prosecution, which initially declined prosecution.       A Report of
       Investigation was issued to the agency for appropriate administrative action,
       including collection of funds that were improperly claimed by and paid to the
       employee. Portions of this case are currently under review by the United States
       Attorney’s office in conjunction with another on-going investigation involving
       the employee.

       PENSION FRAUD CASES

       During this period, we closed five (5) cases without prosecution that involved the
       fraudulent receipt of pension benefits. When the agency referred these cases to
       the OIG, we discovered that the fraudulent activity had occurred between 1992
       and 1996. The age of these cases caused many problems in the investigations.
       For instance, some of the people who took the pension checks were elderly or had
       died; some could not be located. In all of the cases, the statute of limitations for
       prosecution was about to expire or had expired on most of the checks that were
       fraudulently received. We referred these cases back to the agency for pursuit of
       appropriate collection activities.

       In another case, we determined that the pension plan participant had filed a
       forged waiver of spousal retirement benefits. In this case, the husband forged his
       wife’s signature on a document that gave up her right to any future retirement
       benefits. Upon determination of the fraud, we referred the matter to the agency
       to correct the records regarding the wife’s entitlement to a spousal benefit and
       recoup benefits overpaid to the husband as a result of the fraud.




SEPTEMBER 2000                                                                PAGE 9
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                             PENSION BENEFIT GUARANTY CORPORATION




                                                     TABLE 4

                          STATISTICAL TABLES OF INVESTIGATIONS
                              For The Six-month Period Ending
                                   SEPTEMBER 30, 2000


CASE LOAD

                   Pending beginning of period                                                53
                   Opened this period**                                                       10
                   Closed this period                                                         20
                   Pending end of period ***                                                  43


WRONGDOING ALLEGED (CASES OPENED)

                   Fraud, Waste & Abuse                                                         3
                   Wrongdoing                                                                   1
                   Theft                                                                        1
                   Improprieties Relating to Pension Benefits                                   5
                   Proactive                                                                    0


RESULTS OF CASES CLOSED

                   Allegation disproved or not substantiated                                   4
                   Referred to agency for corrective action                                   10
                   Referred to other law enforcement agency                                    1
                   Prosecutions & Civil Settlements                                            1
                      Monetary recoveries       $900
                   Prosecution declined; referred to agency for                                 1
                       disciplinary action & monetary recovery
                   Administrative Closings                                                      3


HOTLINE AND MAIL INQUIRIES

                   Received this period                                                         5

                             First time caller referrals to agency                    3
                             Mail referrals to agency                                 1
                             OIG Customer Assistance                                  1
                             Cases opened                                             0




** Of the ten new cases opened this period, none resulted from Hotline and mail inquiries.
*** Thirty-four of the forty-three investigative cases that are open are from prior reporting periods.



SEPTEMBER 2000                                                                                       PAGE 10
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION




OTHER OFFICE OF INSPECTOR
GENERAL ACTIVITIES
REVIEW OF PROPOSED STATUTORY
AND REGULATORY CHANGES

       To comply with the IG Act, the OIG Legal Counsel is notified by the Office of the
       General Counsel when the agency is proposing legislative and regulatory
       changes. During this period, the regulatory amendments proposed by PBGC
       related to providing better customer service, e.g., simplifying and clarifying rules,
       providing more annuity benefit choices, and adding rules on who will receive
       payments when a participant dies.         These regulations did not impact the
       detection of fraud or abuse.

       In addition, as part of the OIG community, we provided periodic comments on
       proposed bills currently before Congress, including amendments to the IG Act.



TESTIMONY BEFORE CONGRESS

       On September 21, 2000, the Inspector General appeared before the Senate
       Special Committee on Aging and the Senate Small Business Committee to testify
       about audit work that we had conducted concerning PBGC’s:

       •   pension benefit determination process and the timeliness             of   issuing
           determination letters to plan participants, and

       •   computer security.

       At the conclusion of the testimony, the Committees stated that they want the
       OIG to conduct some further reviews in these areas. (Note: the audit work that
       was the subject of the testimony was reported in the two previous Semiannual
       Reports to Congress, covering the periods April 1, 1999 through September 30,
       1999, and October 1, 1999 through March 31, 2000).


OIG AND AGENCY CONSULTATION

       The OIG engaged in several activities this period that included coordination and
       consultation with agency officials to improve agency operations.

       •   We continued to work with a PBGC department to reinforce its referrals to the
           OIG of fraudulent pension payments. This included reviewing its revised
           written policy and procedures, establishing standards for referrals including
           required documentation, and engaging in on-going dialog.

       •   We participated in a PBGC multi-departmental team that formulated and
           implemented an Information Security Corrective Action Plan based on the
           results of our penetration testing audit. Congress requested that the Plan be
           completed by September 30, 2000. Congress asked us to monitor and report
           on the progress of implementation of the corrective actions.



SEPTEMBER 2000                                                                 PAGE 11
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




LIAISON WITH THE UNITED STATES
GENERAL ACCOUNTING OFFICE
       The OIG maintains close liaison with GAO. Listed below are the GAO on-going
       review efforts at PBGC as of September 30, 2000.

       •   Completed a review of PBGC’s use of contractors to carry out its
           responsibilities and the processes associated with the selection and oversight
           of such staff (GA0/HEHS-00-130).

       •   Completed studies of Cash Balance Plans (GAO/HEHS-00-185. GAO/HEHS-
           00-207).




SEPTEMBER 2000                                                               PAGE 12
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION




 STRATEGIC PLANNING
       The Office of Inspector General (OIG) uses strategic planning techniques to
       identify functional risks faced by the Corporation. These techniques allow us to
       maximize our effectiveness with limited resources by focusing on those areas
       most critical to organizational success. This planning is performed at two levels:
       first, by identifying the most critical functional areas; and second, by examining
       specific risks affecting Corporate operations. This planning effort is then used to
       select areas for specific audits and inspections. The OIG has identified five risk
       areas using our strategic planning process. Accordingly, these risk areas, listed
       and discussed below, have been addressed during the past year and will
       continue to be addressed by future audits or investigations. When practicable,
       we have designed audit and evaluation projects to include multiple risk areas.

       •   Procurement of and Performance by Contractors
       •   Pension Liabilities
       •   Systems Integration
       •   Integrity of Payment and Premium Systems
       •   Asset Management

       This strategic planning section contains the critical functional risk areas and
       summarizes activities conducted during FY 2000 (October 1, 1999 through
       September 30, 2000) and references work reported in this semiannual report and
       the prior report covering the period from October 1, 1999 - March 31, 2000.

       With an audit staff of six professionals and limited resources from contracts, it is
       not possible to address each of the above issues in their entirety during the fiscal
       year. Rather, we cycle certain aspects of each area into our annual plans. In
       future periods, we will address other components in the same areas, thereby
       gaining entire coverage over time. The OIG risk areas will be reviewed annually
       to add significant risk functions as they are identified and delete areas where risk
       has been reduced to an acceptable level. In addition, we will coordinate, when
       appropriate with our colleagues in the Department of Labor OIG to ensure full
       coverage in areas that bridge the two agencies.

PROCUREMENT OF AND PERFORMANCE
BY CONTRACTORS

       PBGC currently uses a large number of contractors throughout the Corporation,
       which poses unique risks permeating virtually every aspect of PBGC's business.
       It is essential that proper controls be in place and functioning to ensure
       procurement policies are followed and contractor performance is properly
       monitored.

       FY 2000 Activity.

       •   During the audit of PBGC’s financial statements (see OIG Report 2000-
           7/23138-2), we reviewed selected contractor performance by testing
           compliance with PBGC’s policies and procedures. In our companion report
           (see OIG report 2000-8/23138-3), we recommended that the General
           Accounting Branch reconcile monthly the Procurement Department records
           with the accounting records, and maintain documentation to support each
           of the transactions.



SEPTEMBER 2000                                                                PAGE 13
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION



       •   The OIG provided the Chief Management Officer with an executive advisory
           memorandum discussing continuing weaknesses found in PBGC’s
           procurement process that were similar to weaknesses discussed in earlier
           PBGC and OIG reports (see OIG Report 2000-12/23144).


       •   GAO completed its review of PBGC’s contracting activities (GAO/HEHS-00-
           130). Specifically, GAO reviewed the basis for PBGC’s contracting decisions,
           assessed the processes and procedures for selecting contractors, and
           determined how effective PBGC was in monitoring contractor activity. We
           assisted GAO by providing them with information regarding PBGC’s
           procurement process.

       Projected FY 2001 Activity.

       •   We will complete a survey of PBGC’s use of the government purchase card for
           micropurchases. At a minimum, we will alert PBGC about our concerns and
           will make suggestions, as appropriate.

       •   We will report on our review of the quality of the work performed by
           contractors engaged to assist PBGC in examining premium payer compliance
           with applicable statutory obligations and reporting requirements.

       •   We plan to conduct our annual assessment of PBGC’s procurement function
           to identify issues that remain high risk.


PENSION LIABILITIES

       The primary areas of focus will include accuracy and timeliness of the pension
       liability components. The accuracy issue will address whether all components of
       the liability have been considered and whether factors used for each component
       are supported with sufficient detail and that data are correct. This area has
       been raised in earlier OIG and GAO reports and will be monitored to ensure
       progress is made and deficiencies overcome.

       With respect to timeliness, it is essential that PBGC calculate the final amount
       due individual plan participants in a timely manner. This area has negative
       implications to both participants and PBGC, as pension benefit payments may
       be inaccurate until this process has been completed, and overpayments may
       become uncollectible.

       FY 2000 Activity.

       •   As part of the financial statement audit, the OIG examined PBGC’s
           calculation of the present value of future benefits (PVFB) for terminated plans
           (see OIG Report 2000-7/23138-2) which includes reviewing the components
           related to the PVFB. Our review disclosed that PBGC needs to improve
           controls surrounding the Participant Records Inventory                 Systems
           Management (PRISM) database. This is one of four reportable conditions
           presented in the financial statement audit report. In our companion report
           (see OIG report 2000-8/23138-3), we recommended that the Multiemployer
           Working Group develop formal policies and procedures related to the
           methodology for selecting multiemployer plans to review, and its screening
           ratio process. These recommendations impact upon PBGC’s calculation of its
           liability.




SEPTEMBER 2000                                                               PAGE 14
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION



       •   We updated our review of the length of time that it takes PBGC to issue IDLs
           to participants in terminated plans by extending our scope through FY 1999
           (see OIG Report 2000-4/23140-1). This work was originally performed at the
           request of Senators Bond and Grassley, Chairmen for the Small Business
           Committee and the Special Committee on Aging, respectively.

       •   As a way to assist PBGC in addressing prior recommendations related to
           records retention for those critical elements that support the calculation of
           participants’ benefits and ultimately PBGC’s total pension liability, we
           initiated an analysis to document: 1) PBGC’s procedures for collecting
           supporting documentation; 2) the procedures performed on the information
           collected, including verification of accuracy and completeness; 3) how those
           procedures impact on the financial statement audit; and, 4) earlier
           recommendations for improving the process and identifying what supporting
           documentation should be collected and retained.

      Projected FY 2001 Activity.

       •   We will complete our review of PRISM and report our findings to PBGC.

       •   We will issue an analysis to PBGC for its consideration that discusses critical
           data elements of the benefit determination and the need to maintain
           supporting documentation.

       •   During the audit of PBGC’s financial statements, components relating to
           pension liability will be reviewed.

SYSTEMS INTEGRATION

       The Corporation has recognized problems in systems integration and responded
       with short and long-term solutions. Since a large portion of PBGC’s business is
       automated and depends upon the proper functioning of an integrated network of
       systems, the OIG will continue to maintain involvement in this area. Offering
       advice and technical assistance, the OIG will work with PBGC to help ensure an
       integrated network of systems is built, maximizing productivity while retaining
       sufficient controls to mitigate user risks. In addition, the OIG will be involved in
       interim reviews of the systems processes. The reviews will assess how the
       systems address the dynamic needs of the organization and whether the control
       structure is operating effectively.

       FY 2000 Activity.

       •   During the audit of PBGC’s financial statements, the PBGC’s financial
           management systems were reviewed (see OIG Report 2000-7/23138-2). The
           report on internal controls noted that:

               The financial systems are not integrated, a continuing reportable
               condition. PBGC did not meet the requirements of OMB Circular A-127
               regarding an integrated financial management system. Lack of systems
               integration inhibits management’s ability to accumulate and summarize
               information required for management decision-making purposes.




SEPTEMBER 2000                                                                PAGE 15
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION




               PBGC also lacked a formal Systems Development Life Cycle methodology
               which impacted upon data conversion efforts, security administration,
               user acceptance testing, reports definition, and consistency of systems
               development initiatives.

               PBGC lacked specific criteria to adequately manage its           systems
               development projects that are outsourced to external vendors.

               PBGC needs to improve controls surrounding the PRISM database. This
               is one of four reportable conditions presented in the report.

       Projected FY 2001 Activity.

       •   We will further review PBGC’s system integration issues.

       •   We will complete a review of the PRISM system. We will focus our testing on
           the general and application controls with particular attention to those
           controls present in the benefit payment process.

       •   The Case Administration System (CAS) and the Integrated Present Value of
           Future Benefits System (IPVFB) are mission critical systems that support the
           calculation of PBGC’s PVFB liability. We will initiate system reviews for the
           IPVFB and CAS focusing on internal control, data integrity and security
           issues.

INTEGRITY OF BENEFIT PAYMENT
AND PREMIUM DATA

       The volume of the Corporation’s benefit payment and premium collection
       systems makes these critical areas warranting continuous monitoring by PBGC.
       With benefit payments of more than $70 million per month, and contractors
       largely involved in the process, PBGC’s monitoring function must be able to
       examine payments on a global and individual basis.

       With respect to the premium collection system, PBGC’s monitoring process must
       be sufficient to ensure payment status is captured for all insured pension plans
       and premiums are paid in the proper amount. Periodic monitoring should be
       performed to test data submitted by insured plans and ensure adjustments are
       sought when necessary.

       FY 2000 Activity.

       •   During the audit of PBGC’s financial statements, PBGC’s Premium
           Accounting System (PAS) was reviewed (see OIG Report 2000-7/23138-2). As
           discussed in our companion report (see OIG Report 2000-8/23138-3), we
           found that PBGC was not recording, in conformity with GAAP and in a
           timely manner, amounts identified by the Premium Compliance Review
           Program as due to PBGC.

       •   During the audit of PBGC’s financial statements (see OIG Report 2000-
           7/23138-2), we tested PBGC’s calculation of the PVFB for terminated plans.
           Our audit identified areas where monitoring and information technology
           controls could be strengthened to reduce risks related to the benefit payment
           process, participant record integrity, and protection of information residing
           on its systems.




SEPTEMBER 2000                                                              PAGE 16
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION



       •   The OIG completed its reviews of network security and components of the
           PBGC information technology environment. These reviews focused on
           systems vulnerability, network security policies and procedures, physical
           security of network devices, Internet firewall, and client server configurations.
           We reported that PBGC did not have an effective information systems
           architecture (see OIG Report 2000-3/23137-3), and we identified network
           security vulnerabilities (see OIG Report 2000-2/23137-2).

       •   We performed an evaluation of the security policies, procedures, and
           standards documented in PBGC's Automated Information Systems Security
           Plan and identified security gaps in the policy (see OIG Report 2000-9/23137-
           4).

       •   As presented in the Pension Liabilities section, we updated our review of the
           length of time it takes PBGC to issue IDLs to participants in terminated plans
           by extending our scope through FY 1999 (see OIG Report 2000-4/23140-1).

       Projected FY 2001 Activity.

       •   We will complete our response to the Committees regarding PBGC’s
           completion of its Corrective Action Plan respecting the security issues
           identified during the penetration testing. In addition, we will again perform
           testing of network security measures at PBGC.

       •   Senators Bond and Grassley, Chairmen for the Small Business Committee
           and the Special Committee on Aging, respectively, have asked that we
           determine the accuracy of PBGC’s benefit determination letters that are sent
           to pension plan participants. This project will incorporate reviews of certain
           processes to include actuarial computations, and examination of source
           documentation.

       •   We will complete our review and risk assessment of the Premium Accounting
           System. Based upon our assessment, we will initiate action to address the
           problems identified.

       •   We will complete our reviews of the PRISM system and will be reporting our
           findings to PBGC. The results of our initial reviews may require the OIG to
           perform additional testing.


ASSET MANAGEMENT

       With approximately $19 billion in assets, oversight over security and
       performance should be a continuous task. Many of these assets are managed by
       contractors and require an additional level of scrutiny concerning how and
       where they are invested, and whether performance is as expected.            The
       Corporation needs to be proactive in establishing proper controls up-front, and
       then monitoring and reacting as necessary to variances that may occur.

       FY 2000 Activity.

       •   During the annual financial statements audit, selected investment managers
           and their investment performance were reviewed (see OIG Report, 2000-
           7/23138-2). These reviews included the contractors’ internal controls as
           they related to implementing PBGC’s investment policies, completing
           securities transactions, and investment manager performance.




SEPTEMBER 2000                                                                 PAGE 17
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



       •   As discussed in our companion report (see OIG Report 2000-8/23138-3), we
           found that PBGC was not documenting or enforcing policies and procedures
           related to the reconciliation between two receivables reports and the general
           ledger.

       Projected FY 2001 Activity.

       •   During our audit of PBGC’s financial statements, we will continue to monitor
           PBGC’s management of assets.

       •   We will complete a review of the controls surrounding PBGC’s use of Trust
           Fund assets to reimburse the Revolving Fund for expenses related to the
           Trust Fund operation and management. In addition, we will review whether
           controls are adequate to insure that the Trust Funds are not reimbursing the
           Revolving Funds for administrative expenses that should be subject to
           limitation.




SEPTEMBER 2000                                                              PAGE 18
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                       PENSION BENEFIT GUARANTY CORPORATION




                                                TABLE 5

                            CROSS-REFERENCE TO REPORTING
                      REQUIREMENTS OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the specific pages in the report where they are
addressed.



  Inspector General
    Act Reference       Reporting     Requirements                                           Page


Section 4 (a) (2)       Review of legislation and regulations.                                11

Section 5 (a) (1)       Significant problems, abuses, and deficiencies.                     2 – 3,
                                                                                              9

Section 5 (a) (2)       Recommendations with respect to significant problems, abuses,       2 – 3,
                        and deficiencies.                                                     9

Section 5 (a) (3)       Prior significant recommendations on which corrective actions         3
                        has not been completed.

Section 5 (a) (4)       Matters referred to prosecutive authorities.                          10

Section 5 (a) (5)       Summary of instances where information was refused.                   4


Section 5 (a) (6)       List of audit reports by subject matter, showing dollar value of      5
                        questioned costs and funds put to better use.


Section 5 (a) (7)       Summary of each particularly significant report.                    2 – 3,
                                                                                              9

Section 5 (a) (8)       Statistical table showing number of reports and dollar value of       6
                        questioned costs.

Section 5 (a) (9)       Statistical table showing number of reports and dollar value of       7
                        recommendations that funds be put to better use.


Section 5 (a) (10)      Summary of each audit issued before this reporting period for        None
                        which no management decision was made by end of reporting
                        period.

Section 5 (a) (11)      Significant revised management decisions.                            None

Section 5 (a) (12)      Significant management decisions with which the Inspector             4
                        General disagrees.




SEPTEMBER 2000                                                                             PAGE 19
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION




GLOSSARY
The following defines the terms used in this report.


Questioned Cost         A cost the OIG has questioned because of an alleged
                        violation of law, regulations, contract, grant, cooperative
                        agreement, or other agreement or document governing the
                        expenditure of funds; such cost is not supported by
                        adequate documentation; or the expenditure of funds for the
                        intended purpose is unnecessary or unreasonable.

Unsupported Cost        A cost the OIG has questioned because of a lack of adequate
                        documentation at time of the audit.

Disallowed Cost         A questioned cost that management, in a management
                        decision, has sustained or agreed should not be charged to
                        the government.

Funds To Be Put         Funds the OIG has identified in an audit recommendation
To Better Use           that could be used more efficiently by reducing outlays,
                        deobligating program or operational funds, avoiding
                        unnecessary expenditures, or taking other efficiency
                        measures.

Management              Management's evaluation of audit findings and
Decision                recommendations and issuance of a final decision
                        concerning management's response to such findings and
                        recommendations.

Final Action            The completion of all management actions -- that are
                        described in a management decision -- with respect to audit
                        findings and recommendations. If management concluded
                        no actions were necessary, final action occurs when a
                        management decision is issued.


Misconduct              Action of employees or contractors that violates law, rules,
                        or regulations for which corrective action is warranted.




SEPTEMBER 2000                                                                 PAGE 20
IF   YOU WANT TO REPORT OR DISCUSS CONFIDEN-
TIALLY ANY INSTANCE OF MISCONDUCT, FRAUD,
WASTE, ABUSE, OR MISMANAGEMENT, PLEASE

CONTACT THE   OFFICE OF INSPECTOR GENERAL.


You can telephone:

        The Inspector General's HOTLINE

                1-800-303-9737


Or you can write:

     Pension Benefit Guaranty Corporation
          Office of Inspector General
                P.O. Box 34770
         Washington, D.C. 20043-4770
